         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report



       Rulemaking on Solvent-
       Contaminated Industrial Wipes
       Report No. 2006-P-00001   



       October 4, 2005

Report Contributors:	              Carolyn Copper
                                   Steve Hanna
                                   Anne Bavuso
                                   Bao Chuong
                                   Meredith Kurpius




Abbreviations

EPA            Environmental Protection Agency
GAO            Government Accountability Office
OIG            Office of Inspector General
OMB            Office of Management and Budget
OSW            Office of Solid Waste
RCRA           Resource Conservation and Recovery Act




Cover photo:      An industrial wipe being used to wipe down machinery.
                  (http://ercwipe.com/product_descriptions.htm#shoptowels)
                        U.S. Environmental Protection Agency                                          2006-P-00001

                        Office of Inspector General                                                  October 4, 2005





                        At a Glance
                                                                       Catalyst for Improving the Environment


Why We Did This Review             Rulemaking on Solvent-Contaminated Industrial Wipes

This report responds to a           What We Found
congressional request that we
evaluate the process for           We found the following regarding specific concerns presented to us by Congress
developing the Environmental       related to EPA rulemaking for industrial wipes:
Protection Agency’s (EPA’s)
2003 proposed rule for solvent-    •	 EPA met all legal and internal requirements for rulemaking when it
contaminated industrial wipes.        developed the industrial wipes proposed rule. EPA complied with the
By answering specific concerns        Administrative Procedure Act, which establishes requirements for
presented to us by Congress,          rulemaking. There are no provisions in the Act that address contacts with
we sought to determine the            outside parties during the rulemaking process and thus the appearance of
appropriateness of procedures         favoritism or undue influence.
followed and whether there was
inappropriate influence.           •	 EPA officials and staff had extensive contact with representatives of the
                                      industrial laundry industry, but also had extensive contacts with disposable
Background                            wipes industry representatives and others. No one indicated they were
                                      excluded from the rulemaking process. EPA allowed active public
Industrial wipes are used to          involvement through meetings, telephone calls, e-mails, and letters.
wipe down machinery, floors,
and other surfaces. On             •	 The industrial laundry industry exerted considerable influence on the aspect
November 20, 2003, EPA                of the proposed rule to exclude reusable wipes from solid waste regulations.
proposed a rule to conditionally      However, we found no evidence that the influence was illegal or inconsistent
exclude (a) disposable                with EPA’s standard business practice of obtaining input from stakeholders.
industrial wipes contaminated         Exerting influence is allowable and appropriate. Other stakeholders had
with hazardous solvents from          similar access to EPA. We did not find that the timing of any decisions
the definition of hazardous           coincided with external political events, nor did we find evidence that EPA
waste, and (b) reusable               staff were directly or indirectly influenced by external political events,
industrial wipes (such as rags)       including actions by campaign contributors. Certain EPA actions, related to
contaminated with hazardous           sharing of a small portion of the preamble language and not documenting all
solvents and sent for laundering      contacts in the docket, contributed to public perceptions of impropriety.
from the definition of solid
waste.                              What We Recommend

For further information,           We recommend that EPA implement recommendations proposed by a 2001
contact our Office of
                                   taskforce on improving regulations. We also recommend that EPA draft a
Congressional and Public
Liaison at (202) 566-2391.         guidance document designed to avoid favoritism and the appearance of
                                   favoritism, and develop guidance that clearly defines rulemaking docketing
To view the full report,           requirements. The Agency generally agreed with our recommendations, and the
click on the following link:       Office of Solid Waste and Emergency Response needs to work with the Office of
www.epa.gov/oig/reports/2006/
                                   Policy, Economics, and Innovation to implement those recommendations.
20051004-2006-P-00001.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460




                                                                               THE INSPECTOR GENERAL

                                         October 4, 2005

MEMORANDUM

SUBJECT:              Rulemaking on Solvent-Contaminated Industrial Wipes
                      Report No. 2006-P-00001

TO:                   Thomas Dunne
                      Deputy Assistant Administrator
                      Office of Solid Waste and Emergency Response

                      Brian Mannix
                      Associate Administrator
                      Office of Policy, Economics, and Innovation


This is the final report on the subject review conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and the findings in this report do not necessarily represent the
final EPA position. Final determination on matters in the report will be made by EPA managers
in accordance with established resolution procedures. The report includes EPA’s full response to
the recommendations in Appendix B.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 days of the date of this report. You should include a corrective action plan for
agreed upon actions, including milestone dates. We have no objections to the further release of
this report to the public.

If you or you staff have questions regarding this report, please contact Kwai Chan at
202-566-0827 or Carolyn Copper at 202-566-0829.



                                                     Nikki L. Tinsley
Attachment
                                  Table of Contents 

At a Glance


Chapters
   1	   Introduction ...........................................................................................................      1     


                Purpose ..........................................................................................................    1         

                Background ....................................................................................................       1         

                Scope and Methodology.................................................................................                4         

                Results in Brief ...............................................................................................      4         


   2	   EPA Complied with Legal Requirements, But Needs 

        Better Documentation...........................................................................................               6     


                EPA Met Requirements for Rulemaking.........................................................                          6

                EPA Did Not Always Follow Agency Documentation Guidance .....................                                         8

                Conclusions....................................................................................................       9

                Recommendations .........................................................................................             9

                Agency Comment and OIG Evaluation ..........................................................                         10 


   3	   EPA Had Extensive Contacts with the Public.....................................................                              11 


   4	   Reusable Wipes Industry Influenced Proposed Rule, 

        But No Illegal Action Noted ..................................................................................               13 


                Reusable Wipes Industry Influenced Rulemaking,
                  But This Is Allowable .................................................................................            13 

                Appearances of Favoritism Contributed to Perceptions of Impropriety ..........                                       15 

                Conclusions....................................................................................................      17 

                Recommendations .........................................................................................            17 

                Agency Comment and OIG Evaluation ..........................................................                         17 




Appendices
   A    Details on Scope and Methodology.....................................................................                        18 


   B    Full Text of Agency Response .............................................................................                   22 


   C    Distribution ............................................................................................................    26 





                                                                 i
                                Chapter 1
                                 Introduction

Purpose

          We initiated this review in response to a congressional request. Congress asked
          us to review several aspects of the Environmental Protection Agency (EPA)
          Office of Solid Waste’s (OSW’s) development of a rule to regulate disposable and
          reusable solvent-contaminated industrial wipes. OSW proposed the rule on
          November 20, 2003. Congress asked the Office of Inspector General (OIG) to
          examine the following three issues:

          •   Whether EPA’s process for developing the proposal complied with all legal
              requirements for rulemaking, all internal EPA requirements and practices for
              open government, and established Federal practices to avoid the appearance of
              favoritism or undue influence in agency decision making processes.
          •   The extent of the contacts between EPA officials and staff and representatives
              of the industrial laundry industry.
          •   To clarify, to the extent possible, the degree of influence that the industrial
              laundry industry had in the outcome of the proposal.

Background
          Industrial wipes are commonly used in commercial and industrial facilities,
          typically to wipe down machinery and remove small quantities of solvents from
          machinery parts, hands, tools, and the floor. Through normal use, they become
          contaminated with solvents that, under Federal and most State regulations, may
          cause the managing of the wipes to be subject to Resource Conservation and
          Recovery Act (RCRA) regulation. Wipes exist in both disposable and reusable
          forms. As the names imply, disposable wipes are disposed of after use; reusable
          wipes may be laundered and reused.

          Interest in regulating industrial wipes began with petitions from the disposable
          wipes industry in 1985 and 1987 to exempt solvent-contaminated disposable
          wipes from regulation as hazardous waste. In 1987, industrial laundries, which
          service reusable wipes, requested that reusable wipes be excluded from the
          definition of solid waste. Solid waste is outlined in subtitle D of RCRA, which
          focuses on traditional non-hazardous solid waste, such as municipal garbage.
          Subtitle C of RCRA regulates the management and disposal of hazardous waste,
          and is more stringent than the subtitle D regulations that only apply to solid waste.




                                             1
In 1994, EPA published guidance that effectively deferred determinations and
interpretations regarding solvent-contaminated industrial wipes to those States or
EPA regions with regulatory authority for the base RCRA hazardous waste
program (48 States and 2 Territories are currently authorized for the base
program). States have developed different regulatory actions for both types of
wipes.

To address long-standing issues with the management of solvent-contaminated
industrial wipes, EPA, on November 20, 2003, proposed to modify its regulation.
The version published in the Federal Register was titled: “Hazardous Waste
Management System: Identification and Listing of Hazardous Waste: Conditional
Exclusions From Hazardous Waste and Solid Waste for Solvent-Contaminated
Industrial Wipes; Proposed Rule.” A flowchart of the general process and
milestones for this rulemaking are indicated in Figure 1.1. Significant elements of
the rule included:
                                               Figure 1.1- Wipes Rulemaking Process

•	 Excluding disposable wipes from the                     ACTION                  DATE
   definition of hazardous waste. However,
   these wipes would still be considered solid       EPA identifies need for
                                                           regulation
                                                                                 mid-1990's
   waste and thus subject to the applicable (but
   less stringent) RCRA regulations.
                                                           Workgroup:
•	 Excluding reusable wipes from the                 -analyzes the problem
                                                        -identifies options
                                                                                 mid-1990's to 2003

   definition of solid waste. This would              -assesses economic
                                                       benefits and costs
   exclude the management of all RCRA-listed
   hazardous solvents related to the laundering
   of the reusable wipes from RCRA disposal           proposed regulation
                                                                                Nov. 20, 2003
                                                      published in Federal
   regulations. Solvents that come from 	                   Register
   laundering wipes would still be subject to
   local pretreatment requirements.
                                                        public comment          Nov. 20, 2003 - Feb. 18, 2004
                                                          60-90 days            Extended to March 19, 2004
Specific management conditions must be met to
qualify for either exclusion. For example, for
disposable wipes, 11 specific solvents are                  Workgroup:
                                                     - reviews and evaluates
                                                                                 CURRENT STATUS
banned from disposal in non-hazardous waste                 comments
                                                       - develops draft final
landfills. Both reusable wipes going for                    regulation
laundering and disposable wipes going to a
municipal incinerator may contain no free
                                                     Review and approval
liquids; disposable wipes going to a landfill           by senior EPA
                                                     management and EPA
must have less than 5 grams of solvent. 	               Administrator


Public comments in the docket for this
rulemaking show considerable differences of              Final regulation
                                                       published in Federal
opinion on the provisions of the proposed rule,       Register after review
                                                      and approval by EPA
as shown in Table 1-1: 	                                  Administrator




                                  2

                                  Table 1-1: Differences of Opinions

  Public Group                                       Opinion on Rule
 Manufacturers         They believe the rule provides an unfair competitive advantage to laundered
 of Disposable         wipes. In their opinion, the environmental risks from both laundered and
 Towels                disposable wipes are equivalent, and therefore the solid waste exclusion for
                       laundered wipes is unjustified.
 Industrial            These laundries, which service reusable wipes, are strong supporters of the
 Laundries             rule.
 Generators of         Generators of solvent-contaminated wipes, such as the printing industry,
 Solvent-              believe the intent of the rule is to fairly regulate industries that generate
 Contaminated          solvent-contaminated wipes rather than to affect market share among various
 Wipes                 segments of the industry. The printing industry generally supports the rule.
 Labor and             These groups generally oppose the rule on the grounds that the laundering
 Environmental         process can cause environmental releases and expose workers to
 Groups                contamination.
 States                States that commented expressed a wide variety of positions, but generally
                       suggested modifications instead of blanket endorsement or opposition.

 Source: OIG analysis of the rule docket log.


From July 1998 to November 2003, the majority of the rule options changed in
support of the reusable wipes industry positions. However, the net economic
impact of this rule favors the disposable wipes industry. An economic analysis
conducted by OSW presenting the most likely scenarios of direct impact shows a
savings of from $33 to $36 million annually for the disposable wipes industry and
a cost of $9 to $15 million annually for the reusable wipes industry.

A May 17, 2004, Washington Post article alleged a relationship between
campaign contributions of a major industrial laundry company and EPA’s
development of the November 20, 2003, proposed rule. Subsequently, several
members of Congress asked the EPA Administrator to submit the following
information:

•	 Copies of any internal polices or guidance governing EPA’s interactions with
   outside parties during or prior to a rulemaking and EPA’s practices used to
   avoid the appearance of favoritism.
•	 Copies of each record of any contact between EPA personnel and
   representatives of the industrial laundry industry since January 2001.
•	 Copies of all documents, whether written or electronic, exchanged between
   EPA and representatives of the industrial laundry industry since January 2001.

At the same time they requested this information from the EPA Administrator, the
congressional requesters asked the EPA OIG to examine these issues. We
reviewed the Administrator’s submission to Congress, which we received during
the week of September 27, 2004. Our review showed that EPA had provided, for
comment, a small portion of draft language to the preamble of the proposed rule
to representatives of the industrial laundry industry and had not included all



                                                3

           contacts in the public record. Therefore, we initiated an independent review to
           examine these issues further.

Scope and Methodology
           We conducted our evaluation from January 2005 to April 2005, and generally
           complied with Government Auditing Standards, issued by the Comptroller
           General of the United States (limitations are explained in Appendix A).

           We interviewed key OSW rulemaking staff, other EPA personnel regarding
           rulemaking policies and procedures, and external stakeholders. External
           stakeholders included representatives from industrial wipes manufacturers and
           laundries, industrial wipes users, and environmental and union organizations.
           We obtained other information and EPA documents.

           We reviewed the rulemaking process, from the beginning of the industrial wipes
           rulemaking (1985) to the publishing of the proposed rule in the Federal Register
           on November 20, 2003. We compared EPA’s actions against specific legal
           requirements, EPA internal requirements, and established Federal practices.

           We evaluated specific congressional concerns about favoritism or the appearance
           of favoritism. These included concerns about the sharing of a small portion of the
           draft preamble language with a representative of the reusable wipes industry, and
           inconsistency in including documents in the rulemaking docket. We analyzed
           applicable policies and procedures, interviewed OSW staff, and analyzed
           information in the docket. To evaluate the extent of contacts between EPA
           officials and representatives of the industrial laundry industry, we interviewed
           OSW and industry staff, reviewed e-mail and other written records, and compared
           lists of contacts from multiple sources. Congress had expressed concern that
           EPA’s public participation efforts were inappropriate and one-sided in developing
           the wipes proposal, and we specifically reviewed actions in this area.

           Further details on the scope and methodology for our review, including prior
           reports reviewed related to rulemaking and the specific limitations of our
           evaluation, are in Appendix A.

Results in Brief
           EPA met legal requirements for rulemaking when it developed the November 20, 

           2003, proposed rule for solvent-contaminated industrial wipes. EPA complied 

           with the Administrative Procedure Act, although there are no provisions in the 

           Act that address contacts with outside parties during the rulemaking process. 

           EPA did not adequately document some of its practices, but we do not believe this 

           affected the outcome of the proposed rule. 





                                             4

EPA allowed active public involvement during the process and considered the
view of various stakeholders through meetings, telephone calls, e-mails, and
letters.

The industrial laundry industry exerted considerable influence on the outcome of
the proposal to exclude reusable wipes from solid waste regulations. However,
there was no evidence the influence was illegal or inconsistent with EPA’s
standard practices; other stakeholders had similar access to EPA’s rulemaking
staff. We did not find that the timing of any decisions coincided with external
political events, nor did we find evidence that EPA staff were directly or
indirectly influenced by external political events, including actions by campaign
contributors. Certain EPA actions, related to sharing a small portion of the
preamble language and not documenting all contacts in the docket, contributed to
public perceptions of impropriety.




                                 5

                                Chapter 2
        EPA Complied with Legal Requirements,
           But Needs Better Documentation

         Congressional Issue Addressed: Whether EPA’s process for developing the
         proposal complied with all legal requirements for rulemaking, all internal EPA
         requirements and practices for open government, and established Federal
         practices to avoid the appearance of favoritism or undue influence in agency
         decision making processes.

         EPA met legal requirements for rulemaking when it developed the November 20,
         2003, proposed rule for solvent-contaminated industrial wipes. EPA complied
         with the Administrative Procedure Act, which establishes requirements for
         rulemaking. There are no provisions in the Act that address contacts with outside
         parties during the rulemaking process and thus the appearance of favoritism or
         undue influence. The Agency also complied with other applicable statutes and
         executive orders, as well as its own policies, with some exceptions. EPA did not
         adequately document some of its practices, although we do not believe this
         affected the outcome of the proposed rule.

EPA Met Requirements for Rulemaking
         EPA generally met legal requirements for rulemaking in issuing the November
         20, 2003, industrial wipes proposal.

         Statutes and EPA Policies Address Rulemaking

         EPA develops most rules through hybrid rulemaking, which is informal
         rulemaking with additional requirements imposed by EPA’s authorizing statutes.
         Section 553 of the Administrative Procedure Act establishes four basic
         requirements for informal rulemaking:

         •	 Publish the proposed rule, along with a statement of “basis and purpose,” in
            the Federal Register.
         •	 Give the public an opportunity to comment on the proposed rule.
         •	 Publish the final rule, which should be a logical outgrowth of the proposed
            rule, in the Federal Register.
         •	 Make the final rule effective 30 or more days after publication.

         “Basis and purpose” means that rulemaking agencies must provide justification
         for rules. EPA’s Office of General Counsel notes this is the legal reason why
         EPA uses a docket – it contains all information that serves as the basis for a rule.


                                            6

                  Should there be a challenge to the final rule, a court will review the administrative
                  record of the rulemaking. This record typically includes the Federal Register
                  notice containing the final rule language and preamble; public comments on the
                  proposed rule and Agency’s response; and any supporting documents, data,
                  information, or studies in the rulemaking docket. The Office of General Counsel
                  has advised the Agency to include documents in the docket that serve as the basis
                  of the proposed rule.

                  There are no provisions in the Administrative Procedure Act concerning contacts
                  with external stakeholders before or after a proposed rule is published in the
                  Federal Register. The Act’s requirements are expanded by Title 40, Code of
                  Federal Regulations, section 25.10, which requires that public comments on
                  proposed rules and the Agency’s response to them be included in the docket.

                  Executive Order 12866, Regulatory Planning and Review, requires agencies to
                  submit significant regulatory actions to the Office of Management and Budget
                  (OMB) for review. The Executive Order also lays out transparency requirements,
                  including making available to the public all documents submitted to OMB for
                  review, and details on substantive changes made between drafts and published
                  versions of proposed or final rules.

                  EPA developed its own guidance for rulemaking. Action Development Process:
                  Guidance for EPA Staff on Developing Quality Actions outlines the steps for
                  developing Agency actions, including rules. Based on this guidance, the
                  industrial wipes rulemaking needed cross-Agency involvement because of cross-
                  media issues and the potential for precedent-setting policy. Additional processes
                  include formal cross-Agency approval of an analytic blueprint, documentation of
                  workgroup meetings, and completion of the Comprehensive Regulatory Data
                  form. EPA’s Action Development Process also identifies involving stakeholders.

                  EPA’s January 1981 Policy on Public Participation1 strengthens the Agency’s
                  commitment to public participation and establishes uniform procedures. In an
                  August 1993 memo, Memorandum on Serving the Public Interest, then EPA
                  Administrator Carol Browner emphasized stakeholder involvement. This memo
                  indicated EPA employees should be open to all viewpoints and take affirmative
                  steps to solicit input. All stakeholders are to have an equal opportunity to meet
                  with EPA officials; no one stakeholder should be accorded privileged status. EPA
                  is to examine critically any proposal or recommendation from constituents. This
                  memo gives no instructions for how to avoid favoritism or the appearance of
                  favoritism in Agency decision actions.

                  Dockets are commonly used for rulemaking actions to serve as repositories for the
                  collection of documents or information relied upon in the development of a

1
 An updated policy, EPA 233-B-03-002: Public Involvement Policy of the U.S. Environmental Protection Agency,
May 2003, is not applicable to this review. The 1981 policy was in effect during the time period the industrial wipes
proposed rule was developed.


                                                           7

         particular Agency action. The Office of Solid Waste and Emergency Response’s
         1997 Dockets and Documents: Working with the RCRA Information Center
         provides guidance on what to include in a rulemaking docket. The official OSW
         rulemaking docket is a publicly available paper file containing all the materials
         critical to each stage in rule development. All documents supporting a
         rulemaking must be physically in the docket. These are to include lists of
         participants in external group meetings, communications with outside parties, trip
         reports, critical internal correspondence, summary minutes of meetings, and
         summaries of telephone conversations.

         Wipes Rulemaking Generally Complied with Legal Requirements

         The industrial wipes rulemaking generally complied with all legal requirements,
         including the Administrative Procedure Act. In particular:

         •	 The rulemaking fulfilled the Administrative Procedure Act requirement that
            the proposed rule be published in the Federal Register along with a statement
            of “basis and purpose.”
         •	 As required by Executive Order 12866, EPA submitted the proposed rule to
            OMB for review because of its novel legal and policy issues.
         •	 EPA completed cost-benefit assessments to determine whether the proposed
            rule is economically significant under Executive Order 12866.
         •	 As required by Title 40, Code of Federal Regulations, section 25.10,
            EPA included public comments on the proposed rule in the docket, and relied
            to some extent on docketing guidance for making decisions about what to
            include in the docket.

         As noted, there are no provisions in the Administrative Procedure Act that address
         contacts with outside parties during the rulemaking process and thus the
         appearance of favoritism or undue influence.

EPA Did Not Always Follow Agency Documentation Guidance
         Although EPA generally complied with legal requirements during the industrial
         wipes rulemaking process, it did not always follow the documentation
         requirements of the Action Development Process. However, we do not believe
         these issues affected the outcome of the proposed rule.

         EPA’s regulatory management staff said the industrial wipes rulemaking began at
         a time when rulemaking workgroups did not always adhere to the Action
         Development Process. A 2001 taskforce on improving EPA regulations
         recommended stricter adherence to the Action Development Process and that staff
         attend rulemaking training. EPA’s Office of Policy, Economics, and Innovation
         offers such training. Specific aspects of the Action Development Process not
         implemented include:




                                           8

         •	 Adhering to the formal cross-Agency approval of the detailed analytic
            blueprint (a planning document designed at the beginning of rulemaking).
            All Assistant Administrators/Regional Administrators represented in the
            rulemaking workgroup are to formally concur or concur with comment on the
            blueprint. The workgroup chair at the time the blueprint was developed stated
            it was approved informally. Workgroup members would call or e-mail the
            chair with their comments, suggestions, and concerns on the blueprint.
         •	 Recording workgroup discussion meetings. Workgroup chairs are required by
            the Action Development Process to document all workgroup meetings, but
            this did not happen with the industrial wipes rulemaking.
         •	 Answering all questions on the Comprehensive Regulatory Data form, a
            maintenance form that tracks a rulemaking from its preliminary stages to
            approval as a final rule. Workgroups are to keep the Comprehensive
            Regulatory Data on a rule current throughout the action development process.
            This did not happen in the industrial wipes rulemaking.

Conclusions
         EPA met legal requirements for rulemaking when it developed the November 20,
         2003, solvent-contaminated industrial wipes proposed rule, although there are no
         specific provisions that address contacts with outside parties during the
         rulemaking process. EPA’s one guidance document on favoritism, the 1993
         memo from the EPA Administrator, gives no instructions for how to avoid
         favoritism or the appearance of favoritism in Agency decision actions. However,
         EPA needs to implement its own taskforce recommendations for stricter
         adherence to its rulemaking process guidance and training for rulemaking staff.

Recommendations

         We recommend that the Deputy Assistant Administrator for Solid Waste and
         Emergency Response:

          2-1 	 Work with the Office of Policy, Economics, and Innovation to implement
                the recommendations proposed by the 2001 taskforce on improving
                regulations, including strict adherence to the Action Development Process,
                and ensure all Office of Solid Waste and Emergency Response rulemaking
                staff and management attend rulemaking training.

         We recommend that the Associate Administrator for Policy, Economics, and
         Innovation:

          2-2 	 Work with the Office of Solid Waste and Emergency Response to
                determine how best to complete the Comprehensive Regulatory Data form
                in future rulemaking actions.




                                          9

Agency Comment and OIG Evaluation
         Office of Solid Waste and Emergency Response officials said that the Office of
         Policy, Economics, and Innovation has the lead in implementing the
         recommendations of the 2001 taskforce and should continue in that role. The
         Office of Solid Waste and Emergency Response officials said they seek to strictly
         adhere to the Action Development process. They noted that all its employees
         were invited to take Office of Policy, Economics, and Innovation rulemaking
         training and they will make sure employees new to action development attend the
         course.

         We agree that the Office of Policy, Economics, and Innovation should continue to
         be the lead in implementing the task force recommendations, including the
         taskforce-proposed action item to review, create, and revise, as necessary,
         rulemaking training. Therefore, we revised Recommendation 2-1 to indicate that
         the Office of Solid Waste and Emergency Response needs to work with the Office
         of Policy, Economics, and Innovation to implement the recommendation. The
         Agency indicated that it will make sure that employees new to action
         development will attend rulemaking training. However, we believe that the
         Office of Policy, Economics, and Innovation should implement the taskforce’s
         suggestion to revise training requirements so that all staff involved in the
         regulatory and policy development process receive rulemaking training, not just
         employees new to action development. Given that our review found that a senior
         staff member, with many years experience, shared a small portion of the rule
         preamble language, refresher training appears appropriate for all staff.

         With regard to the Wipes Rulemaking Comprehensive Regulatory Data form not
         being complete, the Office of Solid Waste and Emergency Response said the
         unanswered questions regarding stakeholders are for internal EPA use only, and
         the Office of Policy, Economics, and Innovation envisioned that someone in its
         public participation workgroup would input this information into the form.
         Because the Action Development Process requires the Comprehensive Regulatory
         Data form to be kept current, and the form is used for Agency status reports, we
         added Recommendation 2-2 to ensure that the Office of Policy, Economics, and
         Innovation determine how the form will be completed in future rulemaking
         actions. The Office of Policy, Economics, and Innovation developed the Action
         Development Process guidance and should clarify who is responsible to ensure
         completion of the form.

         The Agency’s full response to the recommendations is in Appendix B.




                                          10 

                           Chapter 3
EPA Had Extensive Contacts with the Public

   Congressional Issue Addressed: The extent of the contacts between EPA officials
   and staff and representatives of the industrial laundry industry.

   EPA officials and staff had extensive contacts with representatives of the
   industrial laundry industry and others. All stakeholders, including disposable
   wipes industry representatives, an environmental interest group, and a labor
   union, said that they were not excluded from the rulemaking process, and EPA
   staff were open and accessible. EPA staff consistently responded to questions,
   e-mails, and phone calls, and granted meeting requests when possible. Both
   reusable and disposable wipes representatives met with OSW senior management
   to voice their concerns. Details on the types of contacts follow.

   •	 Meetings: There were 31 documented meetings between EPA and
      stakeholders between the beginning of the wipes rulemaking (1985) and the
      rule proposal (November 20, 2003). As illustrated in Figure 3.1, reusable
      wipes representatives met with EPA more than other stakeholders
      (42 percent). Disposable
      wipes representatives met      Figure 3.1 - Wipes Meetings with Industry
      with EPA 26 percent of the (Source: OIG analysis)
                                                         Other, 4, 13%
      time. “Other” includes
      State representatives and       Mixed, 6, 19%

      printer associations. There
      was one meeting that
      included the reusable and
      disposable wipes                                                         Reusable, 13,
                                                                                   42%
      representatives that was
      neither in the docket nor the
                                         Disposable, 8,
      response to Congress. This               26%
      was a September 14, 2001,
      meeting between the EPA Deputy Administrator and major small business
      trade associations. We determined that this was not a specific meeting
      between EPA and reusable wipes stakeholders, but rather a large conference-
      style meeting where EPA administrators gave short updates on specific
      projects. Since this was not a specific meeting between EPA and reusable
      wipes representatives, we did not consider the docket omission to be a breach
      of disclosure policy.

   •	 Letters: There were 50 letters from various stakeholders placed in the docket
      for the time period prior to the Federal Register publication of the proposed
      rule. This encompassed 18 from the reusable wipes industry, 21 from



                                       11 

   disposable wipes manufacturers, and 11 from other stakeholders. The Agency
   typically did not respond to these letters; OSW officials said there was no
   legal requirement to do so, and we agree.

•	 Telephone Calls: Wipes rulemaking staff had many stakeholder
   conversations, mostly concerning the current status of the rulemaking and the
   scheduling of meetings. A rulemaking staffer told us: “It is OSW’s policy to
   return phone calls by the end of the next working day,” and that she “was on
   the phone with stakeholders every week.”

•	 E-mail: EPA exchanged numerous e-mails with various stakeholders.
   Between January 2001 and September 2004, OSW staff exchanged
   approximately 75 e-mails with reusable wipes representatives. During the
   same time period, OSW exchanged approximately 39 e-mails with disposable
   wipes manufacturers. The majority of e-mails between EPA and the reusable
   and disposable wipes industries were simple requests for an update on the
   wipes rulemaking status. However, in a number of substantive e-mails, the
   conditions of the rule were discussed. OSW also exchanged extensive e-mails
   with printer industry representatives to discuss a December 2003 conference.

We concluded that while EPA may have had more contacts with industrial
laundry officials than others, EPA sufficiently made itself available to all
interested stakeholders.




                                  12 

                                Chapter 4
 Reusable Wipes Industry Influenced Proposed Rule,
            But No Illegal Action Noted

          Congressional Issue Addressed: To clarify, to the extent possible, the degree of
          influence that the industrial laundry industry had in the outcome of the proposal.

          The industrial laundry industry exerted considerable influence on the outcome of
          the proposal to exclude reusable wipes from solid waste regulations. However,
          we found no evidence that the influence was illegal or inconsistent with OSW’s
          standard business practice of obtaining input from stakeholders. Other
          stakeholders had similar access to EPA’s rulemaking staff. We did not find that
          the timing of any decisions coincided with external political events, nor did we
          find evidence that EPA staff were directly or indirectly influenced by external
          political events, including actions by campaign contributors. Certain EPA
          actions, related to sharing a small portion of the preamble language with a
          reusable wipes industry representative and not documenting all contacts in the
          docket, contributed to public perceptions of impropriety.

Reusable Wipes Industry Influenced Rulemaking, But This Is
Allowable
          The August 1993 Memorandum on Serving the Public Interest requires EPA to
          provide for the most extensive public participation possible in decision-making
          while assuring it does not afford special privileged status to any special interest,
          and does not accept any recommendations or proposals without careful, critical
          examination. EPA’s 1981 Policy on Public Participation discusses the Agency’s
          intention to strengthen its commitment to public participation and establish
          uniform procedures for public participation in EPA’s programs and decision-
          making processes. Neither guidance discusses when public involvement exceeds
          appropriate levels or has the appearance of favoritism.

          Reusable Wipes Industry Requested Solid Waste Exclusion, and
          EPA’s Analysis Supported It

          Up until 2001, OSW management had recommended an exclusion from the
          definition of hazardous waste for both the reusable and disposable wipes
          industries, and had received approval for this option from OSW senior
          management. This option exempted those industries from the hazardous waste
          regulations under RCRA, but they would still need to comply with RCRA’s less
          stringent solid waste regulations.




                                            13 

                    In the summer of 2001, reusable industry representatives submitted to OSW staff
                    legal policy and regulatory alternatives that enable EPA to exclude the
                    management of laundered industrial wipes from classification as solid waste while
                    accomplishing EPA’s goals. In December 2001, reusable industry representatives
                    met with OSW senior management and elaborated on the issue. Soon after this
                    meeting, OSW senior staff instructed EPA rulemaking staff to reevaluate the
                    option of excluding reusable wipes from the definition of solid waste. The reason
                    cited by a senior management official was that the rule would otherwise “. . . not
                    get through OMB.” This official explained to us that his comment was based on
                    experience developing EPA rules, and knowledge of the type of rules reviewed
                    and favorably commented on by OMB, but he did not elaborate further. He also
                    stated that OMB never contacted him about the industrial wipes rulemaking.
                    Although we attempted to discuss this issue with OMB officials, they declined to
                    speak to us about the particulars of its review of the proposed rule, citing that we
                    would be going outside our jurisdiction.

                    EPA staff members told us that they did not view these directions as contrary to
                    their views on the proposal. They also said the exclusion of reusable wipes from
                    the definition of solid waste would still be effective, because if the companies did
                    not meet the conditions required by the rule the wipes would revert to full
                    regulation as a hazardous waste.

                    Meetings with Stakeholders Encouraged during Rulemaking

                    The Agency refined its proposed regulatory approaches for both the reusable and
                    disposable industry throughout 2001, 2002, and 2003 by frequent contacts with all
                    stakeholders, including the launderers. Meetings with stakeholders and the
                    exchange of supporting evidence is not illegal unless the stakeholder offers a quid
                    pro quo arrangement2 to a favorable rulemaking. In fact, in EPA public
                    participation policy, stakeholders impacted by a rule are encouraged to present
                    their points of view and supporting documentation. The public participation
                    policy strongly supports EPA decision makers accepting and considering the
                    knowledge and opinions of others into its decision-making processes to achieve
                    its mission. The policy also acknowledges that meaningful involvement with
                    stakeholders can influence the Agency’s decision. Prior to 2000, the disposable
                    industry dominated communication with OSW in an effort to inform OSW of its
                    concerns with disposable wipes being regulated as hazardous waste.

                    No Evidence of Direct Political Influence Found

                    A May 17, 2004, Washington Post article alleged that the direction of the wipes
                    rule changed based on political campaign contributors. We learned from
                    stakeholders and EPA that the reusable wipes industry began urging a solid waste
                    exclusion after a May 2000 meeting, when EPA staff informed the reusable wipes
                    industry that reusable wipes would be classified as solid waste. Over the next
2
    Quid pro quo is a legal term for the transaction of valued items or favors, in return for giving something of value.


                                                              14 

          1½ years, the reusable wipes industry assembled and submitted requests and
          arguments for a solid waste exclusion. They ultimately met with senior EPA
          management in December 2001 to express their position. EPA senior
          management approved the solid waste exclusion in May 2002. We did not find
          the timing of wipes rule decisions to coincide with external political events, nor
          did we find evidence that EPA staff were directly or indirectly influenced by
          external political events, including actions by campaign contributors.

Appearances of Favoritism Contributed to Perceptions of Impropriety
          Although influence was exerted by industry groups, it is allowable and
          appropriate for any member of the public with an interest in EPA regulations.
          However, certain EPA actions contributed to public perceptions of impropriety.
          These actions involved the sharing of a small portion of the preamble language
          with a reusable wipes industry representative, and not providing consistent
          information and other rule conditions for the solid waste exclusion in the docket.

          Shared Preamble Language Contributed to Appearance of Favoritism

          OSW shared three sentences of the draft preamble language with a representative
          of the reusable wipes industry, but not with representatives of the disposable
          wipes industry or anyone else, in an August 5, 2002 e-mail. These three
          sentences read:

                 Because this action is a proposed rulemaking, provisions of the
                 proposal, as well as EPA’s assumptions and rationale leading to
                 them, are subject to public notice and comment. Therefore, until a
                 final rule governing these materials is issued, they remain
                 regulated, as they are currently, by the State or EPA Region
                 implementing the RCRA program. This proposed rule is not
                 intended to affect individual states’ policies and regulations on
                 management of industrial wipes until it, or a variant of it, is
                 finalized.

          The sharing of a small, if even innocuous, portion of the preamble with only the
          reusable wipes industry provided the appearance of favoritism. According to
          EPA, the reusable wipes representative was concerned that some States might
          change their regulations in anticipation of the implementation of the rule as
          proposed. During proposed rule development, the reusable wipes industry had
          expressed concern that language be included in the preamble stating that the status
          quo remains between publication of the proposed rule and promulgation. The
          sharing of the preamble language is viewed as a courtesy to assure the reusable
          wipes industry that its concerns were being addressed. Because the shared
          preamble language is a statement of legal fact, and not proposed policy, it would
          not have provided laundry industry stakeholders with special knowledge.




                                            15 

Incomplete Public Records Contributed to Appearance of Favoritism

Congress expressed concern that many contacts were not made public through the
rulemaking docket, especially after 2001. We confirmed that the following
contacts and communications between 1985 and the publication of the proposed
rule on November 20, 2003, were not included in the industrial wipes rulemaking
docket:

•   17 meetings
•   6 letters between EPA and stakeholders
•   all telephone conversations
•   most e-mails

We further found that after summer 2001 EPA placed fewer meetings in the
docket than prior to summer 2001. For example, 13 of the 20 meetings that took
place through summer 2001 were in the docket (65 percent), while only 1 of 11
meetings was in the docket after summer 2001 (9 percent). The change with
respect to what information was included in the docket created an appearance of
favoritism because the omissions coincided with a change in rule direction.
Through 2001, EPA favored the option to provide both the disposable and
reusable wipes industries with hazardous waste exclusion, and this preference is
documented in the docket through stakeholder meeting notes. In 2001, EPA
began working toward the solid waste exclusion related to reusable wipes that was
ultimately in the proposed rule. Meeting notes with outside stakeholders on
EPA’s change in direction to a solid waste exclusion after 2001 exist, but EPA did
not place them in the docket. Although the basis for the solid waste exclusion
was included in the preamble to the rule, which is included in the docket, there is
no documentation in the docket to explicitly address EPA’s decision for its
change in position. Explicit documentation demonstrating the bases for this
change would have made the rulemaking process more transparent and helped
avoid the appearance of favoritism.

Although contacts and communications were omitted from the docket, this is not
in violation of EPA rulemaking policy or guidance, nor does it indicate
favoritism. If the information received from communications and contacts –
whether it is a document, e-mail, telephone conversation, or meeting summary –
is not relied upon in the development of a rule, that information does not have to
be in the docket. Currently, all the information that supports the bases for the
proposed rule is reflected in the docket. Therefore, the omissions to the docket do
not violate rulemaking policy or guidance. In addition, the Agency’s consistent
exclusion of records of telephone and e-mail contacts, regardless of source,
demonstrates that EPA treated stakeholders similarly with regard to the exclusion
or inclusion of contacts in the docket and did not selectively exclude or include
contacts.




                                 16 

Conclusions
         The industrial laundry exerted considerable influence on the November 20, 2003,
         proposed rule to regulate solvent-contaminated industrial wipes, but the influence
         exerted is an allowable and encouraged activity under EPA’s public involvement
         policies. EPA staff conducted their own review and analysis of the options
         suggested by the industrial laundry industry and found merit in the suggestions.
         However, actions related to the sharing of a small portion of the preamble
         language, and not including in the docket key information regarding the proposed
         exclusion for the reusable wipes industry, contributed to an appearance of
         favoritism. EPA should avoid casting such appearances of favoritism in the
         future.

Recommendations
         We recommend that the Deputy Assistant Administrator for Solid Waste and
         Emergency Response:

          4-1 	 In collaboration with the Office of Policy, Economics, and Innovation and
                the Agency’s Regulatory Steering Committee, develop a guidance
                document that discusses how to avoid favoritism and the appearance of
                favoritism in Agency actions, including the development of rules.

          4-2 	 In collaboration with the Office of Policy, Economics and Innovation,
                develop a guidance document that clearly defines rulemaking docketing
                requirements, by stages of a rulemaking, and ensure they are consistently
                followed to avoid the appearance of favoritism.

Agency Comment and OIG Evaluation

         The Office of Solid Waste and Emergency Response agreed that these guidance
         documents are appropriate and should be prepared. However, the Office of Solid
         Waste and Emergency Response indicated the guidance documents are more
         appropriately developed by the Office of Policy, Economics, and Innovation, in
         conjunction with the Agency’s Regulatory Steering Committee (of which the
         Office of Solid Waste and Emergency Response is a member).

         The Office of Policy, Economics, and Innovation agreed that it was the
         appropriate office to develop guidance to avoid the appearance of favoritism in
         Agency actions and rulemaking docket procedures. Office of Policy, Economics,
         and Innovation officials indicated they would work with the Agency’s Regulatory
         Steering Committee to implement the recommendations. We consider EPA’s
         actions to be appropriate.

         The Agency’s full response to the recommendations is in Appendix B.



                                          17 

                                                                                      Appendix A

                  Details on Scope and Methodology

We reviewed the rulemaking process for the proposed industrial wipes rule from the beginning
of the rulemaking (1985) to the rulemaking staff’s assessment of the public comments to the
Notice of Proposed Rulemaking, which was published in the Federal Register on November 20,
2003. Our general approach for answering the congressional questions was to interview EPA
industrial wipes rulemaking staff, along with external stakeholders involved in the wipes
rulemaking. We interviewed key OSW rulemaking staff on multiple occasions. We selected
external stakeholders based on their involvement in the rulemaking. We obtained other
information and EPA documents. Specific interviewees included the following:

                                           Interviewees
EPA staff involved in the rulemaking:
   • Office of Solid Waste
   • Office of General Counsel rulemaking workgroup staff
   • Office of Enforcement Compliance Assurance rulemaking workgroup staff
   • Region 3 rulemaking workgroup staff
   • Region 9 rulemaking workgroup staff
   • Former senior Office of Solid Waste and Emergency Response management
EPA rulemaking policy staff:
   • Office of Policy, Economics, and Innovation
   • Policy Analysis and Regulatory Management Staff
External stakeholders:
   • Association of Nonwoven Fabrics Industry, a disposable wipes manufacturers’ trade association
   • Secondary Materials and Reusable Textiles Association, a disposable wipes management trade
       association
   • Uniform and Textile Service Association, an industrial laundries’ trade association, and legal
       counsel for the Association
   • Specialty Graphic Imaging Association, a printers’ trade association
   • Sierra Club, an environmental organization
   • UNITE HERE, a labor union for the laundry industry (formerly the “Union of Needletrades,
       Textiles and Industrial Employees” and “Hotel Employees and Restaurant Employees
       International Union,” which merged in 2004)



To specifically answer questions concerning EPA’s compliance with rulemaking requirements,
we determined the full scope and degree of compliance with all legal requirements for
rulemaking, all internal EPA requirements and practices for open government, and established
Federal practices to avoid the appearance of favoritism or undue influence in agency decision
making processes. To accomplish this, we reviewed EPA and OSW policies and regulations,
interviewed EPA staff and interested stakeholders, and analyzed supporting documentation.

We identified training opportunities and requirements for regulations development staff defined
by EPA and the Office of Solid Waste and Emergency Response. We obtained additional



                                                  18 

information from senior EPA management officials, including OSW and regulations
development program staff in the Office of Policy, Economics, and Innovation and Office of
Solid Waste and Emergency Response. Although OMB would not discuss the specifics of its
review of the proposed rule, it did provide us with general information on OMB’s role in the
rulemaking process.

Our EPA policy and guidance review included rulemaking docket requirements and an
evaluation of existing docket contents for consistency with guidance, including evaluation of
completeness of docket documents and evaluation of documents known to be absent from the
docket. We identified meetings and communications absent from the docket from OSW
responses and other sources, such as meetings identified in industry Web sites. Documents
reviewed included EPA documents on Web sites, documents requested of EPA by members of
Congress, documents provided by stakeholders, the Administrative Procedure Act, other Federal
statues and executive orders affecting the agency rulemaking process, and information from
OMB’s Web site.

To determine whether instances of favoritism or the appearance of favoritism existed in the
wipes rulemaking, we used congressional concerns mentioned in the request as criteria. These
concerns are the sharing of a small portion of the draft preamble language with a representative
of the reusable wipes industry and inconsistency in the inclusion of documents in the rulemaking
docket. We:

   •	 Analyzed Agency policies and procedures on rulemaking.
   •	 Interviewed OSW staff concerning the preamble language and including information in
      the docket.
   •	 Confirmed comments with other OSW staff involved in the rulemaking and internal
      written correspondence between OSW staff.
   •	 Analyzed the impact of the shared preamble language.
   •	 Performed an extensive review and analysis of information included in the docket.
   •	 Determined the impact of items not included in the docket.

To answer the question regarding the extent of the contacts between EPA officials and staff and
representatives of the industrial laundry industry, we interviewed OSW and industry staff,
reviewed e-mail and other written records, and compared lists of contacts from multiple sources.
We verified that the full extent of contacts was captured and communicated in the Agency’s
response to Congress. We reviewed stakeholder Web sites to identify meetings.

Congress expressed concern that EPA’s public participation was inappropriate and one-sided in
developing the wipes proposal. To address this concern, we specifically asked EPA staff about
their public participation program in developing the wipes proposal, and asked all stakeholders
interviewed whether they believed EPA had been open and accessible. In addition, we reviewed
meeting frequency from the beginning of the rulemaking to determine whether access to EPA
was consistent and fair throughout the rulemaking.

To answer the question regarding the degree of influence that the industrial laundry industry had
in the outcome of the proposal, we used Agency criteria for serving the public interest and public


                                                19 

participation in Agency decision making. We also answered this question through our analysis
of the overall communications between OSW and stakeholders (e-mails, meetings, etc.), the
concerns raised by congressional requesters (preamble language shared by EPA with the laundry
industry representatives), and at least one meeting in particular that was significant to changing
the outcome of the proposed rule. To evaluate whether undue influence in Agency rulemaking
was present, we relied on the Office of General Counsel’s definition of what constitutes illegal
influence. We also relied on two pivotal points made in the request:

   •	 What was the level of influence by the reusable wipes industry and its impact on the
      proposed rule preamble language?
   •	 What was the degree of influence in the change in the proposal to exempt reusable wipes
      from regulation as a solid waste?

To evaluate the level of influence the reusable wipes industry had on the preamble language and
its impact, we reviewed communications between OSW staff and laundry representatives, and
interviewed OSW staff, laundry representatives, and staff at an environmental organization and a
labor organization. We also conducted an extensive review of internal EPA staff e-mails to
determine the basis for rulemaking decisions and assess the role of various stakeholders in
influencing decisions. We completed an analysis of OSW communications with disposable
wipes staff, and compared these communications with OSW communications with laundry
industry staff. We analyzed original proposal language, recommendations by laundry
representatives, final preamble language, and impact of language changes.

To evaluate the degree of influence in the change to exempt reusable wipes from regulation as a
solid waste, we evaluated the efforts of the disposable wipes representatives, and environmental
and labor organizations, and whether they were accorded similar access as the industrial laundry
industry representatives. We evaluated e-mails and meetings between OSW and both the
disposable and reusable wipes representatives, and documentation in the regulatory process,
including meeting summaries in the docket and requested pre-decisional rulemaking
documentation obtained from OSW. Pre-decisional documentation includes the detailed
analytical blueprints and options analysis required in regulation development, plus briefing
documents used by staff in presentations to senior Office of Solid Waste and Emergency
Response management. We also examined whether the degree of influence exerted by the
reusable wipes industry conformed to EPA rulemaking policies and guidelines.

Prior Reports

Although there were no prior reports on rulemaking related specifically to industrial wipes, we
reviewed the following EPA and Government Accountability Office (GAO) reports related to
rulemaking:




                                                 20 

                                      Prior Reports Reviewed
 Organization                  Report Title                    Report No.             Date
 EPA OIG        Additional Analyses of Mercury Emissions   2005-P-00003         February 3, 2005
                Needed Before EPA Finalizes Rules for
                Coal-Fired Utilities
 GAO            Rulemaking: OMB’s Role in Reviews          GAO-03-929           September 2003
                of Agencies’ Draft Rules and the
                Transparency of Those Reviews
 GAO            Regulatory Reform: Changes Made to         GAO/GGD-98-31        January 1998
                Agencies’ Rules are Not Always Clearly
                Documented



Limitations

A limitation to answering congressional questions regarding EPA’s compliance with rulemaking
requirements is the lack of any rules for avoiding favoritism or the appearance of favoritism and
undue influence in EPA decision-making processes. EPA guidance indicates that EPA should
consider the input of stakeholders, but does not provide clear guidance on when the level or type
of input becomes inappropriate or illegal.

We relied on evaluations by EPA Policy Analysis and Regulatory Management Staff and the
Office of Policy, Economics, and Innovation of OSW’s compliance with Federal statutes
applicable to rulemaking, but we did not perform tests to ensure their oversight processes and
procedures were accurate or sufficient. However, we did not detect any indication of
noncompliance issues with Federal statutes during our evaluation.

A limitation in answering the congressional question regarding the extent of contacts between
EPA and the laundry representatives is the possibility that some contacts remain undiscovered
despite the fact that our review of contacts and information we received was thorough and
extensive. An additional limitation is that notes from telephone conversations and some
meetings were either unavailable or non-existent.

A lack of access to OMB staff who conducted a review on the industrial wipes proposed rule is a
potential limitation in answering the questions regarding the extent of influence the laundry
industry had on the outcome of the proposed rule. OMB declined to speak to us about the
particulars of its review of the proposed rule, citing that we would be going outside our
jurisdiction. We also are impacted by interviewees’ interpretations of events and their impact, by
their ability to remember details of events that occurred in the past, and by a lack of
documentation.




                                                 21 

                                                                                Appendix B

                     Full Text of Agency Response


                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460

                                                                                    OFFICE OF
                                                                  SOLID WASTE AND EMERGENCY
                                                                                   RESPONSE




                                     September 9, 2005


MEMORANDUM

SUBJECT:             Response to Draft Evaluation Report
                     Rulemaking on Solvent-Contaminated Industrial Wipes
                     Assignment No. 2005-000728

FROM:                Thomas P. Dunne /s/
                     Acting Assistant Administrator

TO:                  Kwai Chan
                     Assistant Inspector General
                     Office of Program Evaluation

       The Office of Solid Waste and Emergency Response (OSWER) has received and
reviewed the draft report sent August 9, 2005, on the review conducted by the Office of the
Inspector General (OIG) on the rulemaking on solvent-contaminated industrial wipes. In the
following attachment, OSWER has provided comments on the draft report and our response to
OIG’s recommendations and findings. Where we have not raised specific comments on the
findings in this report, we do not take issue with them.

     Thank you for the opportunity to provide our comments. If you or your staff have any
comments regarding them, you may contact Kathy Blanton at (703) 605-0761.



Attachment




                                              22 

                                       ATTACHMENT

                    OSWER Responses to Recommendations and Findings

(1)    Recommendations

        (a) On page 9, the Office of the Inspector General (OIG) recommends that the Deputy
Assistant Administrator (DAA) for the Office of Solid Waste and Emergency Response
(OSWER) implement recommendations proposed by the 2001 taskforce on improving
regulations, implement strict adherence to the Action Development Process (ADP), and ensure
staff and managers attend rulemaking development training.

        The Office of Policy Economics, and Innovation (OPEI) has the lead in implementing the
recommendations of the 2001 taskforce on improving regulations and should continue in that
role. OSWER seeks to strictly adhere to the Agency’s current Action Development Process
(dated 6/30/04). Shortly after the guidance document was released and sent to every OSWER
employee, OSWER’s senior managers were briefed. All of OSWER’s employees, including
managers, have been invited to attend OPEI’s rulemaking training, and many have taken the
training. We will continue to ensure that OSWER staff and managers new to action development
attend the course. In addition, a chart that lays out the steps to the ADP and provides specific
guidance has been provided to all OSWER employees. We will ensure that the policies are
followed through standard management controls.

        (b) On page 16, the OIG recommends that the DAA for OSWER draft a guidance
document defining favoritism and discussing how to avoid the appearance of favoritism in
Agency actions. In addition the OIG recommends that the DAA for OSWER draft a guidance
document defining the docket process for each stage of a rulemaking and ensure these guidelines
are followed to avoid the appearance of favoritism.

      OSWER agrees that these guidance documents are appropriate and should be prepared.
However, the guidances are more appropriately developed by OPEI, in conjunction with the
Agency’s Regulatory Steering Committee (of which OSWER is a member). These documents
would be relevant across the entire Agency, not just within OSWER. We are referring your
recommendations to these groups.

(2)    Other Comments

        (a) Chapter 1, page 1, Background, 1st paragraph: The draft report states that through
normal use, industrial wipes get contaminated with solvents that cause their management to be
subject to Resource Conservation and Recovery Act (RCRA) regulation. Because exclusions or
exemptions unrelated to this rulemaking may be in effect in some cases, such as that for
conditionally exempt small quantity generators, we suggest that this be changed to “potentially
cause their management to be subject to Resource Conservation and Recovery Act (RCRA)
regulation.”




                                                23 

        (b) Chapter 1, page 1, Background, 1st paragraph: The draft report states that disposable
wipes are generally paper towels and reusable wipes are generally rags and cloth shop towels.
Non-woven wipes, the kind generally disposed, are not necessarily paper-based: they can be
made from plastics or other materials. In addition, there are cases in which woven wipes, like
rags, are discarded. Throughout the proposed rulemaking, we tried to avoid this confusion by
referring to “disposable” and “reusable” wipes. We suggest that you may want to make this
change throughout your report.

        (c) Chapter 1, page 1, Background, 2nd paragraph: The draft report statement saying the
1987 petition from the industrial laundry requested that “waste resulting from laundering
reusable wipes” be excluded from the definition of solid waste is not exactly correct. This
petition requested an exclusion for the industrial wipes themselves, not for the waste from
laundering them, which would imply a request for an exclusion for sludges and other wastes that
would have come out of wipes when they were laundered.

         (d) Chapter 1, page 2, 1st paragraph: We believe it’s misleading to state that EPA’s 1994
policy “led to the application of different state regulatory actions for both types of wipes.” Most
states had already developed their own approaches to wipes before the 1994 guidance, and that
guidance largely confirmed the existing situation at that time. In addition, to clarify, 48 states and
2 territories are authorized for the RCRA base program, not 50 states.

         (e) Chapter 1, page 2, 2nd bullet: We believe it is somewhat misleading to state that the
exclusion for reusable wipes would exclude the management of all RCRA-listed solvents in
laundered wipes from disposal regulations. The solvents that come from laundering wipes would
still be subject to local pretreatment requirements and those who use the exclusion would often
be required to follow certain conditions established by publicly owned treatment works.

        (f) Chapter 1, page 2, 3rd paragraph: The last sentence states that under the proposal, both
types of wipes would have to meet a standard for no free liquids. In fact, the proposed standard
for disposable wipes requires that each wipe have less than five grams of solvent in them when
sent for landfilling or contain no free liquids if sent to a municipal incinerator.

        (g) Chapter 1, page 3: The draft report includes Table 1-1, which attempts to boil down
the differences in opinions on the proposed rule of the major stakeholder groups into five
categories. As this is an ongoing rulemaking, the Office of Solid Waste (OSW) is still evaluating
the comments on the proposal and has not made its analysis public. In the final report, the Office
of the Inspector General (OIG) should indicate that this summary is theirs, and not OSW’s more
thorough analysis to be used for the purpose of regulatory development and the response to
comments.

        (h) Chapter 1, page 3, Table 1-1: The OSW staff evaluation of the comments to the
proposal does not agree with the OIG’s assessment that “most states favor consistency when
addressing both reusable and disposable wipes.” The state comments were mixed with most
states agreeable toward the proposal for reusable wipes. Over half the states that commented did
not want an exclusion for disposables.




                                                  24 

        (i) Chapter 1, page 3, last paragraph: In stating that “draft language to the preamble of
the proposal” was provided to representatives of the laundering industry, we believe it important
to properly put into context that only a small portion of the draft language to the preamble was
provided. This is language that OIG used later in your draft report. This comment applies
throughout the report wherever it discusses language being provided to the laundering industry.
A reader of a select portion of the report might get the mistaken impression that a larger section
of the preamble was shared.

        (j) Chapter 2, page 9, 3rd bullet: The draft report states that EPA did not answer all the
questions on the Comprehensive Regulatory Data form, a maintenance form that tracks a
rulemaking from its preliminary stages to approval as a final rule. The unanswered questions
regard stakeholders and are for internal EPA use only. They do not appear in the tiering form or
the Regulatory Agenda form that the workgroup chair regularly updates. These questions
originated from the OPEI public participation group a few years ago. OPEI envisioned that
someone in this group would contact each workgroup chair for the information and would input
the data into the electronic form. This has not occurred and, therefore, the information was not
entered. As a result, we do not believe that the omission of this information reflects any failure
on OSWER’s part to follow Agency processes.

       (k) Chapter 4, page 15, 2nd paragraph: The draft report states that meeting notes on EPA’s
decision to propose a solid waste exclusion in 2001 exist but were not placed in the docket. We
suggest that the report should indicate whether it refers to internal meeting notes or notes with
outside stakeholders, as notes from internal meetings should not ordinarily be placed in the
docket (these are considered deliberative).




                                                 25 

                                                                               Appendix C

                                   Distribution

Office of the Administrator
Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Associate Administrator for Policy, Economics, and Innovation
Director, Office of Solid Waste
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Liaison, Office of Solid Waste and Emergency Response
Audit Liaison, Office of Policy, Economics, and Innovation
Audit Liaison, Office of the Administrator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                             26 

